                                                                         EMPLOYMENT STANDARDS
                                                                         ADMINISTRATION
U.S. Department of Labor
                           Office of Inspector General—Office of Audit




                                                                         SPECIAL REPORT RELATING TO THE
                                                                         FEDERAL EMPLOYEES’ COMPENSATION ACT
                                                                         SPECIAL BENEFIT FUND
                                                                         September 30, 2007




                                                                          This report was prepared by KPMG LLP, under contract to the U.S.
                                                                          Department of Labor, Office of Inspector General, and by
                                                                          acceptance, it becomes a report of the Office of Inspector General.



                                                                                                            U.S. Department of Labor
                                                                                                         Assistant Inspector General for Audit




                                                                                                 Date Issued: October 25, 2007
                                                                                              Report Number: 22-08-001-04-431
                                                                          Special Report Relating to the
                                                Federal Employees’ Compensation Act Special Benefit Fund


Table of Contents
Assistant Inspector General for Audit’s Memorandum………………………. ......................... 3

1.    A.   Independent Auditors' Report on the Schedule of Actuarial Liability, Net
            Intra-Governmental Accounts Receivable and Benefit Expense........................ 5

      B.   Schedule of Actuarial Liability, Net Intra-Governmental Accounts
            Receivable and Benefit Expense ........................................................................... 9

      C.   Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
            Accounts Receivable and Benefit Expense........................................................ 10

2.    A.   Independent Accountants' Report on Applying Agreed-Upon
            Procedures............................................................................................................. 15

      B.   Schedules

             Schedule of Actuarial Liability by Agency......................................................... 17

             Schedule of Net Intra-Governmental Accounts Receivable by Agency.......... 19

             Schedule of Benefit Expense by Agency........................................................... 21

      C.   Agreed-Upon Procedures and Results

             Actuarial Liability ................................................................................................. 23

             Net Intra-Governmental Accounts Receivable .................................................. 30

             Benefit Expense ................................................................................................... 35

Appendix
             Acronyms and Abbreviations ............................................................................. 41




Prepared by KPMG LLP, for the                                                                                                       1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                                             Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210




                Assistant Inspector General for Audit’s Memorandum


MEMORANDUM FOR:             FEDERAL AGENCIES WITH RESPONSIBILITIES
                            FOR THE FEDERAL EMPLOYEES’ COMPENSATION
                            ACT PROGRAM




FROM:                       ELLIOT P. LEWIS
                            Assistant Inspector General for Audit

SUBJECT:                    Special Report Relating to the Federal Employees’
                            Compensation Act Special Benefit Fund – FY 2007
                            Report No. 22-08-001-04-431

Attached is the special report on the Federal Employees’ Compensation Act (FECA)
Special Benefit Fund (the Fund) that was prepared to assist in the audit of your
agency’s annual financial statements. The U.S. Department of Labor, Employment
Standards Administration, Office of Workers’ Compensation Programs (OWCP),
administers the Fund and the DOL Office of Inspector General is responsible for
auditing the Fund.

The Office of Inspector General contracted with the independent certified public
accounting firm of KPMG LLP (KPMG) to prepare the report on the Fund as of and for
the year ended September 30, 2007. This special report consists of two reports. The
first report is an opinion on the Schedule of Actuarial Liability, Net Intra-Governmental
Accounts Receivable, and Benefit Expense of the Fund as of and for the year ended
September 30, 2007. KPMG issued an unqualified opinion on this report. In connection
with this audit, KPMG performed certain tests of controls and compliance with laws and
regulations related to the Fund. Their testing disclosed no instances of deficiencies in
internal controls over financial reporting that they consider to be material weaknesses.
Their tests of compliance disclosed no instances of noncompliance or other matters that
are required to be reported under Government Auditing Standards.

The second report is an agreed-upon procedures (AUP) report on the Schedules of
Actuarial Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense
of the Fund by agency as of and for the year ended September 30, 2007. This report
includes a description of the procedures performed and the results of those procedures.

Prepared by KPMG LLP, for the                                                             3
U.S. Department of Labor—Office of Inspector General
Report No: 22-07-002-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

The sufficiency of the procedures referred to in the AUP is solely the responsibility of
the parties specified in this report. Consequently, neither the Office of Inspector
General nor KPMG makes any representations regarding the sufficiency of the
procedures. Because the AUP performed did not constitute an audit, the auditor did not
express an opinion on any elements, accounts, or items as they pertained to the AUP
report. Further, neither the Office of Inspector General nor KPMG has any obligation to
perform any procedures beyond those listed in the attached report.

KPMG is responsible for the attached report dated October 23, 2007, and the
conclusions expressed in the report. We reviewed KPMG’s report and related
documentation and inquired of their representatives. Our review, as differentiated from
an audit in accordance with generally accepted government auditing standards, was not
intended to enable us to express, and we do not express opinions on: the actuarial
liability, net intra-governmental accounts receivable, and benefit expense of the Fund in
total as of and for the year ended September 30, 2007; or the AUP report on the
schedules of actuarial liability, net intra-governmental accounts receivable and benefit
expense of the Fund by agency as of and for the year ended September 30, 2007. Our
review disclosed no instances where KPMG did not comply, in all material respects,
with generally accepted government auditing standards.

If you have any questions or comments, please send your questions or comments via
regular mail, facsimile, or e-mail to:


              Michael T. McFadden
              Director, Office of Accountability Audits
              U.S. Department of Labor
              Office of Inspector General
              200 Constitution Ave., N.W., Room S-5512
              Washington, D.C. 20210

              Fax: (202) 693-5169
              e-mail: mcfadden.michael@oig.dol.gov




4                                                                Prepared by KPMG, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-06-006-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund


                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036




                                                 SECTION 1A
                       Independent Auditors’ Report on the
               Schedule of Actuarial Liability, Net Intra-Governmental
                    Accounts Receivable and Benefit Expense

  Victoria A. Lipnic, Assistant Secretary
  Employment Standards Administration, U.S. Department of Labor,
   Government Accountability Office, Office of Management and Budget,
   and Agencies Specified in Section 2B of this Report:

  We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
  Governmental Accounts Receivable as of September 30, 2007, and Benefit Expense
  for the year ended September 30, 2007 of the U.S. Department of Labor’s (DOL)
  Federal Employees’ Compensation Act Special Benefit Fund (the Schedule). The
  objective of our audit was to express an opinion on the fair presentation of the U.S.
  Department of Labor’s (DOL) Federal Employees' Compensation Act Special Benefit
  Fund (the Schedule). In connection with our fiscal year 2007 audit, we also
  considered DOL’s internal control over financial reporting related to the Schedule and
  tested DOL’s compliance with certain provisions of applicable laws and regulations
  that could have a direct and material effect on the Schedule.

  SUMMARY

  As stated in our opinion on the Schedule, we concluded that the DOL’s Schedule as
  of and for the year ended September 30, 2007, is presented fairly, in all material
  respects, in conformity with U.S. generally accepted accounting principles.

  Our consideration of internal control over financial reporting would not necessarily
  disclose all matters in the internal control that might be material weaknesses as
  defined in the Internal Control over Financial Reporting section of this report.
  However, we noted no matters involving the internal control and its operation that we
  considered to be material weaknesses as defined in this report.

  The results of our tests of compliance with certain provisions of laws and regulations
  disclosed no instances of noncompliance or other matters that are required to be
  reported herein under Government Auditing Standards.

  The following sections discuss our opinion on the DOL’s Schedule, our consideration
  of DOL’s internal control over financial reporting; our tests of the DOL’s compliance

Prepared by KPMG LLP, for the                                                                   5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
                               KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                               a member of KPMG International, a Swiss cooperative.
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




    with certain provisions of applicable laws and regulations; and management’s and our
    responsibilities.

    OPINION ON THE SCHEDULE

    We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
    Governmental Accounts Receivable as of September 30, 2007, and Benefit Expense
    for the year ended September 30, 2007 of the U.S. Department of Labor’s Federal
    Employees’ Compensation Act Special Benefit Fund.

    In our opinion, the Schedule referred to above presents fairly, in all material respects,
    the actuarial liability and net intra-governmental accounts receivable as of September
    30, 2007, and benefit expense for the year ended September 30, 2007, in conformity
    with U.S. generally accepted accounting principles.

    INTERNAL CONTROL OVER FINANCIAL REPORTING

    Our consideration of the internal control over financial reporting was for the limited
    purpose described in the Responsibilities section of this report and would not
    necessarily identify all deficiencies in the internal control over financial reporting that
    might be significant deficiencies or material weaknesses.

    A control deficiency exists when the design or operation of a control does not allow
    management or employees, in the normal course of performing their assigned
    functions, to prevent or detect misstatements on a timely basis. A significant
    deficiency is a control deficiency, or combination of control deficiencies, that
    adversely affects the DOL’s ability to initiate, authorize, record, process, or report
    financial data reliably in accordance with U.S. generally accepted accounting
    principles such that there is more than a remote likelihood that a misstatement of the
    Schedule that is more than inconsequential will not be prevented or detected by the
    DOL’s internal control over financial reporting. A material weakness is a significant
    deficiency, or combination of significant deficiencies, that results in more than a
    remote likelihood that a material misstatement of the financial statements will not be
    prevented or detected by the DOL’s internal control.

    In our fiscal year 2007 audit, we did not identify any deficiencies in internal control
    over financial reporting that we consider to be material weaknesses as defined above.

    COMPLIANCE AND OTHER MATTERS

    The results of our tests of compliance described in the Responsibilities section of this
    report disclosed no instances of noncompliance or other matters that are required to
    be reported herein under Government Auditing Standards.

6                                                                Prepared by KPMG LLP, for the
                                           U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-08-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




  RESPONSIBILITIES

  Management’s Responsibilities.

  Management is responsible for the Schedule, including:

        •   Preparing the Schedule in conformity with U.S. generally accepted
            accounting principles;

        •   Establishing and maintaining effective internal control; and

        •   Complying with laws and regulations applicable to the Schedule.

  In fulfilling this responsibility, management is required to make estimates and
  judgments to assess the expected benefits and related costs of internal control
  policies.

  Auditors’ Responsibilities. Our responsibility is to express an opinion on the
  Schedule based on our audit. We conducted our audit in accordance with auditing
  standards generally accepted in the United States of America and the standards
  applicable to financial audits contained in Government Auditing Standards, issued by
  the Comptroller General of the United States. Those standards require that we plan
  and perform the audit to obtain reasonable assurance about whether the Schedule is
  free of material misstatement. An audit includes consideration of internal control over
  financial reporting as a basis for designing audit procedures that are appropriate in
  the circumstances, but not for the purpose of expressing an opinion on the
  effectiveness of the DOL’s internal control over financial reporting. Accordingly, we
  express no such opinion.

  An audit also includes:

        •   Examining, on a test basis, evidence supporting the amounts and
            disclosures in the Schedule;

        •   Assessing the accounting principles used and significant estimates made by
            management; and

        •   Evaluating the overall Schedule presentation.

  We believe that our audit provides a reasonable basis for our opinion.




Prepared by KPMG LLP, for the                                                                   7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
                               KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                               a member of KPMG International, a Swiss cooperative.
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




    In planning and performing our audit, we considered the DOL’s internal control over
    financial reporting by obtaining an understanding of the DOL’s internal control,
    determining whether internal controls had been placed in operation, assessing control
    risk, and performing tests of controls as a basis for designing our auditing procedures
    for the purpose of expressing our opinion on the Schedule. We limited our internal
    control testing to those controls necessary to achieve the objectives described in
    Government Auditing Standards. The objective of our audit was not to express an
    opinion on the effectiveness of the DOL’s internal control over financial reporting.
    Accordingly, we do not express an opinion on the effectiveness of the DOL’s internal
    control over financial reporting.

    As part of obtaining reasonable assurance about whether the Schedule is free of
    material misstatement, we performed tests of the DOL’s compliance with certain
    provisions of laws and regulations, noncompliance with which could have a direct and
    material effect on the determination of the Schedule amounts. We limited our tests of
    compliance to the provisions described in the preceding sentence, and we did not test
    compliance with all laws and regulations applicable to the DOL Schedule. However,
    providing an opinion on compliance with laws and regulations was not an objective of
    our audit and, accordingly, we do not express such an opinion.

                            ______________________________

    This report is intended solely for the information and use of the U.S. Department of
    Labor, the U.S. Government Accountability Office, Office of Management and Budget
    (OMB), the U.S. Congress and those Federal agencies with responsibility for the
    FECA program and is not intended to be and should not be used by anyone other
    than these specified parties.




    October 23, 2007




8                                                              Prepared by KPMG LLP, for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-001-04-431
                                                               SpecialReport Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                        SECTION 1B
                            U.S. Department of Labor
                      Employment Standards Administration
            Federal Employees’ Compensation Act Special Benefit Fund
           Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2007 and Benefit Expense
                   For the Year Ended September 30, 2007

                                  (dollars in thousands)

       Actuarial Liability                                              $ 26,306,062


       Net Intra-Governmental Accounts Receivable                        $ 3,758,013


       Benefit Expense                                                   $ 3,004,287




                              See accompanying notes to schedule.



Prepared by KPMG LLP, for the                                                             9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2007 and Benefit Expense
                     For the Year Ended September 30, 2007

1.     Significant Accounting Policies

       a.   Basis of Presentation

       The Schedule of Actuarial Liability and Net Intra-Governmental Accounts
       Receivable as of September 30, 2007, and Benefit Expense for the year ended
       September 30, 2007 of the U.S. Department of Labor’s Federal Employees'
       Compensation Act Special Benefit Fund (the Schedule) has been prepared to
       report the actuarial liability, net intra-governmental accounts receivable and
       benefit expense of the U.S. Department of Labor (DOL) Federal Employees’
       Compensation Act (FECA) Special Benefit Fund (the Special Benefit Fund). The
       Special Benefit Fund was established by the Federal Employees' Compensation
       Act to provide for the financial needs resulting from compensation and medical
       benefits authorized under the Act.          The DOL, Employment Standards
       Administration (ESA) is charged with the responsibility of operating the Special
       Benefit Fund under the provisions of the Act. The schedule has been prepared
       from the accounting records of the Special Benefit Fund.

       The actuarial liability, net intra-governmental accounts receivable and benefit
       expense of the Special Benefit Fund are considered specified accounts for the
       purpose of this Schedule. ESA is responsible for providing this information to the
       CFO Act agencies and other specified agencies to support and prepare their
       respective financial statements.

       The actuarial liability is an accrued estimate of future workers' compensation
       benefits as of September 30, 2007. Historical benefits paid, inflation and interest
       rate assumptions, and other economic factors are applied to the actuarial model
       that calculates the liability estimate. The net intra-governmental accounts
       receivable is the amount due from Federal agencies for benefit payments paid to
       or on behalf of employees of the employing agency as of September 30, 2007.
       The net intra-governmental accounts receivable includes amounts which were
       billed to the employing agencies through June 30, 2007, but not paid as of
       September 30, 2007, including prior years, if applicable, plus the accrued
       receivable for benefit payments not yet billed for the period of July 1, 2007
       through September 30, 2007, less credits due from the public. Benefit expense
       consists of benefits paid and accrued for the period from October 1, 2006 to
       September 30, 2007, plus the net change in the actuarial liability for the fiscal
       year.
                                                                            (continued)
10                                                             Prepared by KPMG LLP, for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




                                       SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2007 and Benefit Expense
                     For the Year Ended September 30, 2007

       Benefit payments are intended to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease and beneficiaries of employees
       whose death is attributable to job-related injury or occupational disease.

b.     Basis of Accounting

       The Schedule has been prepared on the accrual basis of accounting in
       conformity with U.S. generally accepted accounting principles.

       An estimate of claims that have been incurred but not reported are included in
       the actuarial liability. Therefore, the actuarial liability represents the estimated
       present value of future compensation and medical payments based upon
       approved claims, plus a component for incurred but not reported claims.

2.     Actuarial Liability (Future Workers’ Compensation Benefits)

       The Special Benefit Fund was established under the authority of the Federal
       Employees' Compensation Act to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease and beneficiaries of employees
       whose death is attributable to a job-related injury or occupational disease. The
       fund is reimbursed by other Federal agencies for the FECA benefit payments
       made on behalf of their workers.

       The actuarial liability for future workers’ compensation reported on the Schedule
       includes the expected liability for death, disability, medical and miscellaneous
       costs for approved cases as well as an estimate for those cases incurred but not
       reported. The liability is determined using a method that utilizes historical benefit
       payment patterns related to a specific incurred period to predict the ultimate
       payments related to that period. The actuarial model uses a Paid Loss
       Development Method by agency, by defined agency groups, and in total using
       inflation rate assumptions on both past and future indemnity and medical benefits
       to adjust past data and project forward.

                                                                                (continued)
Prepared by KPMG LLP, for the                                                            11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                                          SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2007 and Benefit Expense
                     For the Year Ended September 30, 2007

       Consistent with past practice and as allowed under U.S. generally accepted
       accounting principles, these projected annual benefit payments have been
       discounted to present value using the Office of Management and Budget's (OMB)
       economic assumptions for 10-year Treasury notes and bonds. The interest rate
       assumptions utilized for discounting was 4.93% in year 1 and 5.08% in
       subsequent years.

       To provide more specifically for the effects of inflation on the liability for future
       workers' compensation benefits, wage inflation factors (cost of living allowance or
       COLA) and medical inflation factors (consumer price index-medical or CPI-Med)
       are applied to the calculation of projected future benefits. These factors are also
       used to adjust the historical payments to current year constant dollars. The
       liability is determined assuming an annual payment at mid-year.

       The compensation COLA and the CPI-Med used in the model's calculation of
       estimates were as follows:

                          FY            COLA          CPI-Med

                         2008          2.63%           3.74%
                         2009          2.90%           4.04%
                         2010          2.47%           4.00%
                         2011          2.37%           3.94%
                         2012          2.30%           3.94%
       The medical inflation rates presented represent an average of published
       quarterly rates covering the benefit payment fiscal year. The compensation
       factors presented are the blended rates used by the model rather than the
       published July 11, 2007 FECA-COLA factor from which the blended rates are
       derived.

3.     Net Intra-Governmental Accounts Receivable

       Net intra-governmental accounts receivable is the total of the amounts billed to
       Federal agencies through June 30, 2007 that had not been paid as of
       September 30, 2007, including prior year’s amounts billed, if applicable, plus an

                                                                              (continued)

12                                                             Prepared by KPMG LLP, for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund



                                            SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2007 and Benefit Expense
                     For the Year Ended September 30, 2007

       accrued receivable for benefit payments not yet billed for the period July 1, 2007
       through September 30, 2007, less applicable credits due from the public. The
       FECA Special Benefit Fund also receives an appropriation for special cases and
       older cases where employing agencies are not charged for benefit payments.

       Each Federal agency is required by the Federal Employees’ Compensation Act
       to include in their annual budget estimate a request for an appropriation in the
       amount equal to the agency cost. Agencies not receiving an appropriation are
       required to pay agency costs from funds directly under their control. In addition,
       certain corporations and instrumentalities are assessed under the Federal
       Employees' Compensation Act for a fair share of the costs of administering
       disability claims filed by their employees. The fair share costs are included in the
       calculation to determine the net intra-governmental accounts receivable.

4.     Benefit Expense
       Benefit expense for the year ended September 30, 2007 was comprised of the
       following (dollars in thousands):

                Benefits paid for compensation               $ 1,790,371
                Benefits paid for medical benefits               753,157
                Change in accrued benefits                         6,202
                Change in actuarial liability                ___454,557

                    Total benefit expense                    $ 3,004,287




Prepared by KPMG LLP, for the                                                            13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-08-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund



                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036



                                                 SECTION 2A
                           Independent Accountants’ Report
                         on Applying Agreed-Upon Procedures

Victoria A. Lipnic, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
Government Accountability Office, Office of Management and Budget,
and Agencies Specified in Section 2B of this Report:

We have performed the procedures described in Section 2C, Agreed-Upon Procedures
and Results, which were agreed to by the U.S. Department of Labor, U.S. Government
Accountability Office, Office of Management and Budget, and the Agencies Specified in
Section 2B of this Report, solely to assist you and such agencies with respect to the
accompanying Schedules of Actuarial Liability by Agency and Net Intra-Governmental
Accounts Receivable by Agency as of September 30, 2007, and Benefit Expense by
Agency for the year ended September 30, 2007, of the U.S. Department of Labor
Federal Employees' Compensation Act Special Benefit Fund (the Schedules). The U.S.
Department of Labor is responsible for the Schedules (Section 2B).

This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and with Government Auditing Standards, issued by the Comptroller
General of the United States.

The sufficiency of the procedures is solely the responsibility of the parties specified in
this report. Consequently, we make no representation regarding the sufficiency of the
procedures described in Section 2C either for the purpose for which this report has
been requested or for any other purpose. Our agreed-upon procedures and results are
presented in Section 2C of this report.

We were not engaged to, and did not perform an audit of the Schedules of Actuarial
Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency and
Benefit Expense by Agency, the objective of which is the expression of an opinion on
the Schedules or a part thereof. Accordingly, we do not express such an opinion. Had
we performed additional procedures, other matters might have come to our attention
that would have been reported to you.




Prepared by KPMG LLP, for the                                                                  15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
                               KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                               a member of KPMG International, a Swiss cooperative.
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, the U.S. Government Accountability Office, Office of Management and Budget
and those federal agencies with responsibility for the FECA program, and is not
intended to be and should not be used by anyone other than these specified parties.




October 23, 2007




16                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-08-001-04-431
                                                               Special Report Relating to the
                                     Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2B
                            U.S. Department of Labor
                      Employment Standards Administration
            Federal Employees’ Compensation Act Special Benefit Fund
                       Schedule of Actuarial Liability by Agency
                             As of September 30, 2007

                                       (dollars in thousands)

                                                                            Actuarial
 AGENCY                                                                     Liability
 Agency for International Development                                         $23,528
 Environmental Protection Agency                                               39,786
 General Services Administration                                              164,883
 National Aeronautics and Space Administration                                 64,060
 National Science Foundation                                                    1,182
 Nuclear Regulatory Commission                                                  6,833
 Office of Personnel Management                                                21,020
 U.S. Postal Service                                                        8,923,407
 Small Business Administration                                                 26,321
 Social Security Administration                                               271,981
 Tennessee Valley Authority                                                   538,096
 U. S. Department of Agriculture                                              775,281
 U. S. Department of the Air Force                                          1,381,158
 U. S. Department of the Army                                               1,977,872
 U. S. Department of Commerce                                                 164,415
 U. S. Department of Defense – other                                          777,041
 U. S. Department of Education                                                 16,186
 U. S. Department of Energy                                                   105,231
 U. S. Department of Health and Human Services                                275,776
 U. S. Department of Homeland Security                                      1,683,569
 U. S. Department of Housing and Urban Development                             81,779
                                                                                 (continued)

Prepared by KPMG LLP, for the                                                             17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
                                                                                    Special Report Relating to the
                                                          Federal Employees’ Compensation Act Special Benefit Fund

                                                              SECTION 2B
                                       U.S. Department of Labor
                                 Employment Standards Administration
                       Federal Employees’ Compensation Act Special Benefit Fund
                                       Schedule of Actuarial Liability by Agency
                                             As of September 30, 2007

                                                           (dollars in thousands)


                                                                                                               Actuarial
      AGENCY                                                                                                   Liability
      U. S. Department of the Interior                                                                           $659,333
      U. S. Department of Justice                                                                                1,046,480
      U. S. Department of Labor                                                                                   237,919
      U. S. Department of the Navy                                                                               2,694,074
      U. S. Department of State                                                                                    68,078
      U. S. Department of Transportation                                                                          949,465
      U. S. Department of the Treasury                                                                            573,038
      U. S. Department of Veterans Affairs                                                                       1,826,564
      Other agencies 1                                                                                            931,706
      Total - all agencies                                                                                     $26,306,062




     1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.


18                                                                                      Prepared by KPMG LLP, for the
                                                                  U.S. Department of Labor—Office of Inspector General
                                                                                      Report Number: 22-08-001-04-431
 Special Report Relating to the
 Federal Employees’ Compensation Act Special Benefit Fund

                                                                           SECTION 2B
                                          U.S. Department of Labor
                                    Employment Standards Administration
                          Federal Employees’ Compensation Act Special Benefit Fund
                                                   Schedule of Net Intra-Governmental
                                                    Accounts Receivable by Agency
                                                       As of September 30, 2007
                                                                     (dollars in thousands)


                                                                                                      Amounts                        Net Intra-
                                                                             Amounts                  Expended         Credits     Governmental
                                                                            Billed Not                 Not Yet        Due from       Accounts
AGENCY                                                                      Yet Paid (1)              Billed (2)      Public (3)   Receivable (4)
Agency for International Development                                                  $7,483                 $1,019        $(39)           $8,463
Environmental Protection Agency                                                          7,869                1,282         (49)            9102
General Services Administration                                                       29,549                  4,626        (177)           33,998
National Aeronautics and Space Administration                                         13,527                  2,106         (80)           15,553
National Science Foundation                                                                 255                 38           (1)              292
Nuclear Regulatory Commission                                                            1,445                 223           (9)            1,659
Office of Personnel Management                                                           3,495                 548          (21)            4,022
United States Postal Service                                                        (10,158)                282,914     (10,794)          261,962
Small Business Administration                                                            4,988                 759          (29)            5,718
Social Security Administration                                                        47,781                  7,368        (281)           54,868
Tennessee Valley Authority                                                            66,050                 16,816        (642)           82,224
U. S. Department of Agriculture                                                     140,784                  21,663        (827)          161,620
U. S. Department of the Air Force                                                   256,722                  39,889      (1,522)          295,089
U. S. Department of the Army                                                        283,532                  43,230      (1,649)          325,113
U. S. Department of Commerce                                                          24,830                  3,615        (138)           28,307
U. S. Department of Defense – other                                                 177,851                  30,740      (1,173)          207,418
U. S. Department of Education                                                            7,644                1,627         (62)            9,209
U. S. Department of Energy                                                            17,498                  3,176        (121)           20,553
                                                                                                                                    (continued)
 1 Amount billed through June 30, 2007 (including prior years) but not yet paid as of September 30, 2007.
 2 Amounts paid and accrued but not yet billed for the period July 1, 2007 through September 30, 2007.
 3 Allocation of credits due from the public through September 30, 2007.
 4 Total amount due to the fund for each agency as of September 30, 2007.




 Prepared by KPMG LLP, for the                                                                                                               19
 U.S. Department of Labor—Office of Inspector General
 Report Number: 22-08-001-04-431
                                                                                                 Special Report Relating to the
                                                                       Federal Employees’ Compensation Act Special Benefit Fund

                                                                        SECTION 2B
                                         U.S. Department of Labor
                                   Employment Standards Administration
                         Federal Employees’ Compensation Act Special Benefit Fund
                                                  Schedule of Net Intra-Governmental
                                                   Accounts Receivable by Agency
                                                      As of September 30, 2007

                                                                      (dollars in thousands)

                                                                                                     Amounts                         Net Intra-
                                                                            Amounts                  Expended          Credits     Governmental
                                                                            Billed Not                Not Yet         Due from       Accounts
AGENCY                                                                     Yet Paid (1)              Billed (2)       Public (3)   Receivable (4)
U. S. Department of Health and Human
Services                                                                            $49,202                  $7,524       $(287)         $56,439
U. S. Department of Homeland Security                                               314,803                  48,532      (1,852)         361,483
U. S. Department of Housing and Urban
Development                                                                           15,940                  2,523         (96)          18,367
U. S. Department of the Interior                                                    118,936                  18,421        (703)         136,654
U. S. Department of Justice                                                         186,533                  29,624      (1,130)         215,027
U. S. Department of Labor                                                             47,263                  7,868        (300)          54,831
U. S. Department of the Navy                                                        488,081                  74,709      (2,850)         559,940
U. S. Department of State                                                             15,488                  2,235         (86)          17,637
U. S. Department of Transportation                                                  186,409                  28,657      (1,093)         213,973
U. S. Department of the Treasury                                                    103,903                  16,088        (614)         119,377
U. S. Department of Veterans Affairs                                                328,749                  50,846      (1,940)         377,655
Other agencies                                                                        86,448                 15,608        (596)         101,460
Total - all agencies                                                          $3,022,900                   $764,274    $(29,161)      $3,758,013




1 Amount billed through June 30, 2007 (including prior years) but not yet paid as of September 30, 2007.
2 Amounts paid and accrued but not yet billed for the period July 1, 2007 through September 30, 2007.
3 Allocation of credits due from public through September 30, 2007.
4 Total amount due to the fund for each agency as of September 30, 2007.


20                                                                                                     Prepared by KPMG LLP, for the
                                                                                 U.S. Department of Labor—Office of Inspector General
                                                                                                     Report Number: 22-08-001-04-431
                                                                   Special Report Relating to the
                                         Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2B
                               U.S. Department of Labor
                         Employment Standards Administration
               Federal Employees’ Compensation Act Special Benefit Fund
                           Schedule of Benefit Expense by Agency
                                 As of September 30, 2007

                                        (dollars in thousands)

                                                        Benefits
                                                       Paid and
                                                       Change in       Change in        Total
                                                        Accrued        Actuarial       Benefit
AGENCY                                                  Benefits        Liability     Expense

Agency for International Development                        $3,244             $90         $3,334
Environmental Protection Agency                              4,223             378          4,601
General Services Administration                             15,134            (168)        14,966
National Aeronautics and Space Administration                6,666           3,843         10,509
National Science Foundation                                      126          (105)              21
Nuclear Regulatory Commission                                    726          (601)          125
Office of Personnel Management                               1,714             572          2,286
United States Postal Service                              939,210          260,693      1,199,903
Small Business Administration                                2,283            (724)         1,559
Social Security Administration                              24,610          (2,782)        21,828
Tennessee Valley Authority                                  55,289         (15,226)        40,063
U. S. Department of Agriculture                             71,988         (32,371)        39,617
U. S. Department of the Air Force                         130,929           11,253        142,182
U. S. Department of the Army                              179,542            4,003        183,545
U. S. Department of Commerce                                15,592          (5,749)         9,843
U. S. Department of Defense - other                         62,112         (36,491)        25,621
U. S. Department of Education                                1,447            (766)          681
U. S. Department of Energy                                  10,036           8,845         18,881
U. S. Department of Health and Human Services               24,513           2,402         26,915
                                                                                      (continued)
Prepared by KPMG LLP, for the                                                                    21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
                                                                                       Special Report Relating to the
                                                             Federal Employees’ Compensation Act Special Benefit Fund

                                                              SECTION 2B
                                      U.S. Department of Labor
                                Employment Standards Administration
                      Federal Employees’ Compensation Act Special Benefit Fund
                                       Schedule of Benefit Expense by Agency
                                             As of September 30, 2007

                                                           (dollars in thousands)

                                                                                        Benefits
                                                                                       Paid and
                                                                                       Change in           Change in       Total
                                                                                        Accrued            Actuarial      Benefit
AGENCY                                                                                  Benefits            Liability    Expense
U.S. Department of Homeland Security                                                       $159,490          $164,240     $323,730
U. S. Department of Housing and Urban Development                                                8,233           1,906      10,139
U. S. Department of the Interior                                                               60,027         (19,590)      40,437
U. S. Department of Justice                                                                    95,561          54,920      150,481
U. S. Department of Labor                                                                      19,458          (4,606)      14,852
U. S. Department of the Navy                                                                 244,274           (4,609)     239,665
U. S. Department of State                                                                        6,896           5,409      12,305
U. S. Department of Transportation                                                             93,993          (3,504)      90,489
U. S. Department of the Treasury                                                               52,845         (27,699)      25,146
U. S. Department of Veterans Affairs                                                         168,065           14,617      182,682
Other agencies (1)                                                                             91,504          76,377      167,881
Total - all agencies                                                                    $2,549,730           $454,557    $3,004,287




 1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.

 22                                                                                        Prepared by KPMG LLP, for the
                                                                     U.S. Department of Labor—Office of Inspector General
                                                                                         Report Number: 22-08-001-04-431
                                                                           Special Report Relating to the
                                                 Federal Employees’ Compensation Act Special Benefit Fund

                                                     SECTION 2C

                                   Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


    Agreed-Upon Procedures Performed                            Results of Procedures

    1) Calculated the actuarial liability, by                   The actuarial liability as of September 30,
       agency, as of September 30, 2007,                        2007 calculated using KPMG’s Loss
       using KPMG’s Loss Development                            Development       actuarial     model    is
       actuarial model1.                                        approximately $25.8 billion.

    2) Recalculated the actuarial liability, by                 The recalculated actuarial liability as of
       agency, as of September 30, 2007,                        September 30, 2007 using DOL’s Loss
       using DOL’s Loss Development                             Development      actuarial    model     is
       actuarial model2.                                        approximately $26.3 billion.




1
 KPMG’s model uses actual data to evaluate trends and project future payments. KPMG’s model also supplements its
methodology with the number of workers related to each agency in injury years 2001 through 2007.

2
 The DOL, model uses a Paid Loss Development Method by agency, by defined agency groups, and in total using inflation rate
assumptions on both past and future indemnity and medical benefits to adjust past data and project forward.
Prepared by KPMG LLP, for the                                                                                                23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                        SECTION 2C

                                   Agreed-Upon Procedures and Results

ACTUARIAL LIABILITY

Procedures and Results

    Agreed-Upon Procedures Performed                               Results of Procedures


    3) Compared the interest rate and                              The interest rate and inflation rate
       inflation    (COLA,      CPI-Med)                           assumptions    used    by    the   Loss
       assumptions used by the DOL Loss                            Development actuarial models by DOL and
       Development model as of September                           KPMG are as follows:
       30, 2007 to the interest rate and
       inflation    (COLA,      CPI-Med)                                                                    DOL KPMG
       assumptions used by KPMG’s Loss                             Interest rate
       Development model as of September                             Year 1                                 4.93% 3.50%3
       30, 2007.                                                     Year 2                                 5.08% 3.50%

                                                                   Inflation rates
                                                                     COLA Year 1                            2.63% N/A4
                                                                     COLA Year 2                            2.90% N/A
                                                                     COLA Year 3                            2.47% N/A
                                                                     COLA Year 4                            2.37% N/A
                                                                     COLA Year 5 forward                    2.30% N/A
                                                                     CPI-Med Year 1                         3.74% N/A
                                                                     CPI-Med Year 2                         4.04% N/A
                                                                     CPI Med Year 3                         4.00% N/A
                                                                     CPI Med Year 4                         3.94% N/A
                                                                     CPI Med Year 5 forward                 3.94% N/A

    4) Compared DOL’s actuarial liability as No exceptions were found as a result of
       of September 30, 2007 using DOL’s applying this procedure.
       Loss Development actuarial model to
       KPMG’s calculation of the actuarial
       liability as of September 30, 2007
       using DOL’s Loss Development
       actuarial model.

3
  KPMG’s model used a lower interest rate because selected loss development patterns are used to project future payments by
year for each injury year and such loss patterns include a provision for inflation escalation and because the payments projected
were discounted to June 30, 2007.
4
  KPMG’s model did not use an inflation rate because it does not adjust data to the current level and therefore inflation wais
included in the loss development patterns selected.
24                                                                               Prepared by KPMG LLP, for the
                                                           U.S. Department of Labor—Office of Inspector General
                                                                               Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

 Agreed-Upon Procedures Performed               Results of Procedures

 5) Compared DOL’s results for the fiscal       The actuarial liability as of September 30,
    year end actuarial liability using DOL’s    2007 calculated using DOL’s Loss
    Loss Development actuarial model to         Development       actuarial     model    is
    our results for the fiscal year end         approximately $511 million (2%) greater
    actuarial liability using KPMG’s Loss       than the actuarial liability using KPMG’s
    Development actuarial model.                Loss Development actuarial model.

 6) Compared the average interest and           The average interest rate used in the DOL
    average inflation rate (COLA and CPI-       Loss   Development      Actuarial   model
    Med) assumptions used by the DOL            decreased from 5.30% to 5.06% from
    Loss Development actuarial model as         September 30, 2006 to September 30,
    of September 30, 2006 to the average        2007.
    interest and average inflation rate
    (COLA and CPI-Med) assumptions              The average COLA rate used in the DOL
    used by the DOL Loss Development            Loss   Development   Actuarial   model
    actuarial model as of September 30,         decreased from 2.60% to 2.42% from
    2007.                                       September 30, 2006 to September 30,
                                                2007.

                                                The average CPI-med rate used in the
                                                DOL Loss Development Actuarial model
                                                decreased from 4.06% to 3.94% from
                                                September 30, 2006 to September 30,
                                                2007.




Prepared by KPMG LLP, for the                                                              25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                        Agreed-Upon Procedures and Results

ACTUARIAL LIABILITY

Procedures and Results

Agreed-Upon Procedures Performed                Results of Procedures

7) Calculated the percentage change in          The actuarial liability increased in the
   the actuarial liability by agency and in     aggregate from approximately $25.9 billion
   the aggregate from September 30,             as of September 30, 2006 to approximately
   2006 to September 30, 2007, based            $26.3 billion (1.5%) as of September 30,
   on the DOL Loss Development                  2007.
   actuarial model, identified agencies
   whose actuarial liability changed by         The following agency had a change in
   more than 10% during 2007, and for           actuarial liability from September 30, 2006
   such     agencies,       calculated   the    to September 30, 2007 of greater than
   percentage       change      in    benefit   10%: Department of Homeland Security
   payments for the year ended                  (10.8%)
   September 30, 2006 to September 30,
   2007.                                        The benefit payments for the Department
                                                of Homeland Security increased 1.15%.


8) Compared the interest rate (used for No exceptions were found as a result of
   discounting the future liability to the applying this procedure.
   present value) and inflation rates
   (COLA and CPI-Med) used by the
   DOL Loss Development actuarial
   model as of September 30, 2007 to
   the Fiscal Year 2008 Mid-Session
   Review prepared by OMB from which
   they are derived.




26                                                             Prepared by KPMG LLP, for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 Agreed-Upon Procedures Performed               Results of Procedures

 9) Compared the actuarial liability by No exceptions were found as a result of
    agency,     as   reported      in  a applying this procedure.
    Memorandum to the CFOs of
    Executive Departments issued by
    DOL’s Chief Financial Officer dated
    September 29, 2007, for the current
    fiscal year end, to the liability
    calculated by the DOL Loss
    Development model and reported on
    the Projected Liability Reports as of
    September 30, 2007.

 10) Compared both the fiscal year 2007 No exceptions were found as a result of
     benefit payments by agency and the applying this procedure.
     aggregate       2002-2007       benefit
     payments used by the DOL Loss
     Development actuarial model with the
     amount of benefit payments reported
     in the Summary Chargeback Billing
     Report which reflects benefits paid on
     behalf of each agency.

 11) Compared the agency groupings used No exceptions were found as a result of
     in the DOL Loss Development applying this procedure.
     actuarial model as of September 30,
     2007 with the agency groupings used
     in the DOL Loss Development
     actuarial model as of September 30,
     2006 and determined if there were
     any changes.




Prepared by KPMG LLP, for the                                                              27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                        Agreed-Upon Procedures and Results

ACTUARIAL LIABILITY

Procedures and Results

Agreed-Upon Procedures Performed              Results of Procedures

12) Compared the benefit payments             For one agency, the U.S. Department of
    predicted by the 2006 DOL Loss            Labor (DOL), the actual benefit payments
    Development actuarial model for 2007      for 2007 from the DOL Summary
    to the actual benefit payments for        Chargeback Billing Report varied by more
    2007 from the DOL Summary                 than 20% and $2 million from the benefit
    Chargeback Billing Report and             payments predicted for 2007 by the 2006
    identified agencies where the DOL         DOL Loss Development actuarial model.
    Loss Development actuarial model          The actual benefit payments for 2007 from
    computed benefit payments varied by       the DOL Summary Chargeback Billing
    more than 20 percent and $2 million       Report for DOL of $19.6 million were $5.4
    from actual benefit payments made         million and 21.5% less than the $25 million
    during 2007 from the Summary              of benefit payments predicted for 2007 by
    Chargeback Billing Report.                the 2006 DOL Loss Development actuarial
                                              model.




28                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-08-001-04-431
                                                                 Special Report Relating to the
                                       Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                             Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

    Agreed-Upon Procedures Performed                Results of Procedures

    13) Compared the net effective rates            The net effective rate (interest rate minus
        (interest minus inflation rates) for        inflation rate5) for compensation of 2.45%
        compensation and medical utilized in        used by the DOL Loss Development
        the Loss Development actuarial model        actuarial model as of September 30, 2007
        as of September 30, 2007 by the             was less than the net effective rates for
        USPS,        OPM,      SSA,      Energy     compensation utilized in the Loss
        Employees’        Occupation      Illness   Development actuarial model as of
        Compensation Program, and the               September 30, 2007 by USPS (3.60%),
        Black Lung Disability Trust Fund to         OPM (2.75%), SSA (2.93%), and more
        the net effective rates (interest minus     than the net effective rates for
        inflation rates) for compensation and       compensation utilized in the Loss
        medical utilized by the DOL Loss            Development actuarial model as of
        Development actuarial model as of           September 30, 2007 by the Black Lung
        September 30, 2007.                         Disability Trust Fund (1.52%). The Energy
                                                    Employees’          Occupational        Illness
                                                    Compensation Program did not use the net
                                                    effective rates (interest minus inflation rate)
                                                    for compensation.

                                                    The net effective rate (interest rate –
                                                    inflation rate6) for medical of 1.13% used
                                                    by the DOL Loss Development actuarial
                                                    model as of September 30, 2007 was less
                                                    than the net effective rates for medical
                                                    utilized in the Loss Development actuarial
                                                    model as of September 30, 2007 by the
                                                    Black Lung Disability Trust Fund (1.57%),
                                                    and more than the USPS (0.4%) and the
                                                    Energy Employees Occupational Illness
                                                    Compensation Program (-0.92%). The net
                                                    effective rates (interest minus inflation
                                                    rates) for medical used by OPM and SSA
                                                    were not available.

5
    COLA
6
    CPI-Med
Prepared by KPMG LLP, for the                                                                     29
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                 Results of Procedures

14) Confirmed      accounts     receivable       Confirmations were received from all
    balances due as of June 30, 2007 from        agencies that were sent a confirmation
    the Liability for Current Federal            request.    The    confirmed    accounts
    Employees’      Compensation       Act       receivable balances as of June 30, 2007
    Benefits prepared by the DOL-OCFO            agreed with the account receivable
    and posted on the DOL website7 for all       balances as of June 30, 2007 posted on
    CFO Act agencies (except DOL) and            the DOL website9 except for the following
    the U.S. Postal Service and compared         four agencies:
    confirmed account receivable balances
                                                                             Confirmed
    as of June 30, 2007 to the amounts             Agency   Website Amount
                                                                              Amount
                                                                                           Difference
    posted on the DOL website8.                   USDA        140,783,703    140,389,156     394,547
                                                  AID           7,484,241      7,475,383        8,858
                                                  OPM           3,493,053      3,496,850      (3,797)
                                                  EDU           3,079,943      3,187,555   (107,612)




7
  http://www.dol.gov/ocfo/media/reports/FECA_liability_07_3q.pdf
8
  http://www.dol.gov/ocfo/media/reports/FECA_liability_07_3q.pdf
9
  http://www.dol.gov/ocfo/media/reports/FECA_liability_07_3q.pdf
30                                                                 Prepared by KPMG LLP, for the
                                             U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                Results of Procedures

15) Compared the net intra-governmental         The variance from comparing the net intra-
    accounts receivable balances reported       governmental         accounts  receivable
    by the OCFO on the Liability for            balances reported by the OCFO on the
    Current      Federal      Employees’        Liability for Current Federal Employees’
    Compensation Act Benefits report as of      Compensation Act Benefits report as of
    September 30, 2006 to the net intra-        September 30, 2006 to the net intra-
    governmental accounts receivable            governmental         accounts  receivable
    balances by Federal agency reported         balances by Federal agency reported by
    by the OCFO on the Liability for            the OCFO on the Liability for Current
    Current      Federal      Employees’        Federal Employees’ Compensation Act
    Compensation Act Benefits as of             Benefits as of September 30, 2007 are
    September 30, 2007.                         identified in Exhibit A.

   Recalculated the September 30, 2007          The recalculated net intra-governmental
   net     intra-governmental    accounts       accounts receivable balances agreed to
   Receivable balances for each agency          the balances reported by the OCFO in the
   by subtracting the cash collections          Liability for Current Federal Employee’s
   (reported by the OCFO on the SF-             Compensation Act Benefits as of
   224s) and adding the FY 2007 bills           September 30, 2007 for each agency
   (sent to Federal agencies) to the            except the following agencies:
   September 30, 2006 ending balance              Agency   Recalculated   OCFO Amount     Difference
                                                             Amount
   and    compared      the   recalculated         DOC      10,742,440      6,944,224      3,798,216
   balance to the balance reported by the          USPS    (28,194,881)   (10,157,489)   (18,037,392)
                                                  TREAS    102,993,131    103,002,836       (9,705)
   OCFO in the Liability for Current               OPM       3,493,053      3,494,952       (1,899)
   Federal Employees’ Compensation Act              AID      7,484,241      7,482,685        1,556
   Benefits as of September 30, 2007.              EDU        614,083       4,421,439     (3,807,356)
                                                   DOD     136,746,008    136,853,832      (107,824)




Prepared by KPMG LLP, for the                                                                           31
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                Results of Procedures

16) Compared the Summary Chargeback             Variances      between     the    Summary
    Billing Report for the period July 1,       Chargeback Billing Report for the period
    2006 through June 30, 2007, to the          July 1, 2006 through June 30, 2007 and
    bills sent to Federal entities dated July   the bills sent to Federal agencies were
    31, 2007.                                   noted for the following agencies:

                                                   •   DOI          $     (28,649)
                                                   •   USDA         $     (39,839)


17) Compared the Allocation of Accrued No exceptions were found as a result of
    Benefits as of September 30, 2007 applying this procedure.
    recorded on the OCFO Liability for
    Current     Federal      Employees’
    Compensation Act Benefits report as
    of September 30, 2007 to the accrual
    calculation worksheet prepared by
    DOL.

18) Compared the FY 2007 4th quarter            The FY 2007 4th quarter accounts
    accounts receivable estimate prepared       receivable estimate prepared by the OCFO
    by the OCFO and reported on the 4th         varied from the actual payments reported
    Quarter FECA Liability Report to the        on the Summary Chargeback Billing
    FY 2007 4th quarter benefit payments        Report by $29.6 million.
    reported on the Summary Chargeback
    Billing Report.




32                                                             Prepared by KPMG LLP, for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund
                                                                                    EXHIBIT A
                                                                      Results of Procedure 15

                                       SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


                                                       Net Intra-Governmental
                                                        Accounts Receivable
                                                            September 30
                      Agency                            2007            2006      Change

Agency for International Development                       $8,463        $8,500       $(37)

Environmental Protection Agency                             9,102         8,493        609

General Services Administration                            33,998        33,786        212

National Aeronautics and Space Administration              15,553        15,056        497

National Science Foundation                                   292           291            1

Nuclear Regulatory Commission                               1,659         1,836       (177)

Office of Personnel Management                              4,022         4,543       (521)

U.S. Postal Service                                       261,962       238,542     23,420

Small Business Administration                               5,718         5,643         75

Social Security Administration                             54,868        53,891        977

Tennessee Valley Authority                                 82,224        83,488     (1,264)

U.S. Department of Agriculture                            161,620       159,790      1,830

U.S. Department of the Air Force                          295,089       290,415      4,674

U.S. Department of the Army                               325,113       324,053      1,060

U.S. Department of Commerce                                28,307        32,116     (3,809)
                                                                                  (continued)

Prepared by KPMG LLP, for the                                                                  33
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                                                 EXHIBIT A
                                                                   Results of Procedure 15

                                       SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


                                                   Net Intra-Governmental
                                                    Accounts Receivable
                                                        September 30
                   Agency                           2007            2006         Change

U.S. Department of Defense - other                   $207,418       $185,086       $22,332

U.S. Department of Education                               9,209        4,251        4,958

U.S. Department of Energy                              20,553          20,008          545

U.S. Department of Health and Human
Services                                               56,439          56,202          237

U.S. Department of Homeland Security                  361,483         341,586       19,897

U.S. Department of Housing and Urban
Development                                            18,367          17,709          658

U.S. Department of Interior                           136,654         133,937        2,717

U.S. Department of Justice                            215,027         201,005       14,022

U.S. Department of Labor                               54,831          54,196          635

U.S. Department of Navy                               559,940         557,343        2,597

U.S. Department of State                               17,637          17,883         (246)

U.S. Department of Transportation                     213,973         215,145       (1,172)

U.S. Department of the Treasury                       119,377         117,893        1,484

U.S. Department of Veterans Affairs                   377,655         369,264        8,391


34                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


 Agreed-Upon Procedures Performed             Results of Procedures

 19) Compared       benefit    payments No exceptions were found as a result of
     recorded in the Integrated Federal applying this procedure.
     Employees Compensation System
     (iFECS) and Central Bill Pay (CBP)
     databases to the U.S. Department of
     the Treasury’s SF-224s as of March
     31, 2007 and September 30, 2007.

 20) Compared the benefit payments            The benefit payments reported in the
     reported      in    the     Summary      Summary Chargeback Billing Reports for
     Chargeback Billing Reports for the       the fiscal year ended September 30, 2007
     fiscal year ended September 30,          were $11.9 million less than the total
     2007 to the total benefit payments in    benefit payments in the iFECS and CBP
     the iFECS and CBP databases for          databases for the fiscal year ended
     the fiscal year ended September 30,      September 30, 2007.
     2007.
                                              Management’s most recent reconciliation
                                              between the Summary Chargeback Billing
                                              Reports and the total benefit payments in
                                              the iFECS and CBP databases performed
                                              for the chargeback year ending June 30,
                                              2007 and quarter ending September 30,
                                              2007 resulted in unidentified differences of
                                              less than $0.7 million, in the aggregate.

 21) Compared       compensation    and       The following agencies had increases
     medical bill payments by agency for      (decreases) over 10% in compensation and
     the fiscal year ending September         medical bill payments for the year ended
     30, 2007 from the Summary                September 30, 2007 compared to the year
     Chargeback Billing Report prepared       ended September 30, 2006:
     by DOL, to the compensation and
     medical bill payments by agency             •     DOL         (11%)
     made for the fiscal year ended              •     SBA         (11%)

Prepared by KPMG LLP, for the                                                                35
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

Agreed-Upon Procedures Performed             Results of Procedures
     September 30, 2006 from the                •   OPM           (12%)
     Summary Chargeback Billing Report          •   EDU           (21%)
     prepared by DOL, and identified any        •   AID           (27%)
     variances over 10 percent.                 •   NRC           (11%)
                                             Variances for the remaining agencies were
                                             less than 10 percent.

22) For a selection of 110 compensation      For one of the 110 sample items, the
    payments, performed tests for            compensation amount of the payment was
    existence     and      accuracy    by    not calculated using the data on the
    comparing benefit data from the          applicable form CA-1032, resulting in an
    applicable Forms CA-1 Federal            overpayment of $280. The compensation
    Notice of Traumatic Injury and Claim     payment was calculated using a rate of ¾
    for          Continuation           of   of the claimants compensation rate, instead
    Pay/Compensation, CA-2 Notice of         of the 2/3 of the claimants compensation
    Occupational Disease and Claim for       rate that should have been used because
    Compensation, CA-7 Claim for             the claimant had no spouse or dependents
    Compensation,        and     CA-1032     reported on the CA-1032.
    Request      for    Information    on
    Earnings,         Dual       Benefits,
    Dependents       and    Third   Party
    Settlements to the payment amounts
    in iFECS.

23) For a selection of 153 medical No exceptions were found as a result of
    payments, performed tests for applying the procedure.
    existence   and    accuracy    by
    comparing the medical bill to the
    payment amount in CBP.




36                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


 Agreed-Upon Procedures Performed             Results of Procedures

 24) Calculated the change in the The actuarial liability increased by $455
     actuarial liability reported on the million from September 30, 2006 to
     September 30, 2007 and September September 30, 2007.
     30,    2006     compilation  reports
     prepared by DOL.

 25) Calculated a 12-month projected          The calculated projected benefit payments
     benefit payment by multiplying the       based on the March 31, 2007 iFECS and
     six month benefit payments from the      CBP databases were $157 million (6.58%)
     March 31, 2007, iFECS and CBP            less than the actual 12 month benefit
     databases by two and compared the        payments. There was an additional
     projected 12-month total benefit         payment cycle in FY 2007 of $108 million.
     payments to the actual 12-month          The remaining difference is $49 million
     total benefit payments as of             (2.06%).
     September 30, 2007 calculated from
     the Summary Chargeback Billing
     Reports.

 26) Compared the Fiscal Year 2007 4th        The Fiscal Year 2007 4th quarter benefit
     quarter benefit expense estimate         expense estimate calculated by the OCFO
     calculated by the OCFO on the            on the liability for Current Federal
     Liability  for    Current     Federal    Employees Compensation Act Benefits
     Employees      Compensation       Act    report varied from the actual benefit
     Benefits report to the actual benefits   expenses recorded in iFECS and CBP by
     recorded in iFECS and CBP.               approximately $38.2 million.




Prepared by KPMG LLP, for the                                                              37
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




38                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-08-001-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




Appendix




Prepared by KPMG LLP, for the                                                              39
U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




40                                                            Prepared by KPMG LLP, for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

                AID                    U.S. Agency for International Development
                AUP                    Agreed Upon Procedures
                CBP                    Central Bill Processing System
                CFO                    Chief Financial Officers’ Act
                COLA                   Cost of Living Allowance
                CPI-Med                Consumer Price Index for Medical
                DOC                    U.S. Department of Commerce
                DOD                    U.S. Department of Defense
                DOI                    U.S. Department of Interior
                DOL                    U.S. Department of Labor
                EDU                    Department of Education
                ESA                    Employment Standards Administration
                FECA                   Federal Employees' Compensation Act
                iFECS                  Integrated Federal Employees’ Compensation
                                       System
                NRC                    Nuclear Regulatory Commission
                OCFO                   Office of the Chief Financial Officer
                OMB                    Office of Management and Budget
                OPM                    Office of Personnel Management
                SBA                    Small Business Administration
                SSA                    Social Security Administration
                TREAS                  U.S. Department of Treasury
                USDA                   Department of Agriculture
                USPS                   U.S. Postal Service




Prepared by KPMG LLP, for the                                                            41
U.S. Department of Labor—Office of Inspector General
Report No: 22-07-002-04-431
